         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA’s Endocrine Disruptor
       Screening Program Should
       Establish Management Controls to
       Ensure More Timely Results
       Report No. 11-P-0215

       May 3, 2011
Report Contributors:                               Rick Beusse
                                                   Hilda Canes Garduño
                                                   Kevin Good
                                                   Renee McGhee-Lenart
                                                   Julie Narimatsu
                                                   Byron Shumate

Abbreviations

APR             Annual Performance Review
EDSP          	 Endocrine Disruptor Screening Program
EDSTAC 	        Endocrine Disruptor Screening and Testing Advisory Committee
EPA 	           U.S. Environmental Protection Agency
FQPA 	          Food Quality Protection Act of 1996
FY            	 Fiscal year
ICCVAM	         U.S. Interagency Coordinating Committee on the Validation of
                Alternative Methods
NIEHS         	 National Institute of Environmental Health Sciences
NRDC 	          Natural Resources Defense Council
OCSPP 	         Office of Chemical Safety and Pollution Prevention
OECD 	          Organization for Economic Cooperation and Development
OIG 	           Office of Inspector General
ORD 	           Office of Research and Development
SAB 	           Science Advisory Board (EPA)
SAP 	           Scientific Advisory Panel (Federal Insecticide Fungicide and Rodenticide Act)
SDWA 	          Safe Drinking Water Act
SEP 	           Standard Evaluation Procedure


Cover photos: 	 left: farmer spraying pesticides (photo courtesy National Institute of
                Environmental Health Sciences); center: mink frog with extra limb
                (photo courtesy U.S. Geologic Survey); right: cross-billed cormorant with
                deformed beak (EPA photo from Office of Research and Development
                presentation titled: Overview of EPA’s Endocrine Disruptors Research,
                March 14, 2004)




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                  11-P-0215
                                                                                                              May 3, 2011
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment

Why We Did This Review             EPA’s Endocrine Disruptor Screening Program Should
                                   Establish Management Controls to Ensure More Timely Results
We sought to determine
whether the U.S.                   What We Found
Environmental Protection
Agency (EPA) has planned and       Fourteen years after passage of the FQPA and Safe Drinking Water Act
conducted the requisite            amendments, EPA’s EDSP has not determined whether any chemical is a potential
research and testing to evaluate   endocrine disruptor. EDSP has not developed a management plan laying out the
and regulate endocrine-            program’s goals and priorities, or established outcome performance measures to
disrupting chemicals. We           track program results. EDSP missed milestones for assay validation and chemical
focused on EPA’s Endocrine         selection established by the 2001 Natural Resources Defense Council (NRDC)
Disruptor Screening Program        settlement agreement. Completed activities exceeded their targets by about 4½ to
(EDSP) because it is the           6 years. An EDSP manager told us that EDSP was unaware of the complexities,
program that focuses on            resources, and time needed to validate assays until years after the 2001 settlement
screening and testing chemicals    agreement was signed. However, EDSP did not substantially revise its milestones
with endocrine-disrupting          for completing assay validation in its status reports to NRDC. For example, 9 of 11
effects.                           updates that EPA provided to NRDC for the estrogen receptor binding assay
                                   incrementally adjusted the milestones, collectively, by a total of 4½ years.
Background                         Concerned about program progress, in 2007, Congress instituted reporting
In 1996, Congress passed the       requirements, and in 2009, specified deadlines for certain EDSP activities.
Food Quality Protection Act        As a result, EPA recently published two EDSP documents for public comment.
(FQPA), which gave EPA the
authority to screen and test       We acknowledge the difficulties involved in establishing an effective endocrine
substances that may have an        disruptor screening and testing program. However, in addition to lacking a
effect in humans that is similar   management plan and outcome measures, EDSP has not created a final statement
to that of a naturally occurring   of policy, finalized specific procedures to evaluate Tier 1 screening results, or
estrogen, or such other            established specific procedures to evaluate Tier 2 testing results. EDSP needs to
endocrine effects as the EPA       develop and implement plans and performance measures to establish management
Administrator may designate.       control and accountability. EDSP plans to develop a management plan for the
In 1998, EPA established the       program but had not done so at the time of our review.
EDSP, which uses a two-tiered
screening and testing approach     What We Recommend
to assess endocrine effects.       We recommend that EPA (1) define and identify the universe of chemicals for
EDSP was expanded to include       screening and testing, (2) develop and publish a standardized methodology for
androgenic and thyroid effects.    prioritizing the universe of chemicals for screening and testing, (3) finalize specific
For further information,
                                   Tier 1 and Tier 2 criteria to evaluate testing data, (4) develop performance
contact our Office of              measures, (5) develop a comprehensive management plan, and (6) hold annual
Congressional, Public Affairs      program reviews. EPA agreed to develop a comprehensive management plan and
and Management at                  performance measures. However, EPA’s response did not provide sufficient
(202) 566-2391.                    information for us to determine whether its plans to develop a standardized
The full report is at:             methodology for chemical prioritization and to finalize Tier 2 criteria would meet
www.epa.gov/oig/reports/2011/      the intent of the two recommendations. The Agency did not agree to define and
20110503-11-P-0215.pdf             identify the universe of chemicals, and only agreed to continue its existing annual
                                   program reviews. We consider recommendations 1, 2, 3, and 6 unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           May 3, 2011

MEMORANDUM

SUBJECT:	              EPA’s Endocrine Disruptor Screening Program Should Establish
                       Management Controls to Ensure More Timely Results
                       Report No. 11-P-0215


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:	                   Stephen A. Owens
                       Assistant Administrator for Chemical Safety and Pollution Prevention


This is our report on the Endocrine Disruptor Screening Program based on a review conducted
by the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).
This report contains findings that describe the problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $414,775.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want released to the public; if your response contains such data, you should identify the data
for redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or
najjum.wade@epa.gov; or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
EPA’s Endocrine Disruptor Screening Program Should                                                                             11-P-0215
Establish Management Controls to Ensure More Timely Results


                                     Table of Contents 


Chapters
   1 	 Introduction ...........................................................................................................       1


                   Purpose .......................................................................................................    1     

                   Background .................................................................................................       1     

                   Noteworthy Achievements ...........................................................................                7     

                   Scope and Methodology ..............................................................................               7     


   2 	 EPA’s Endocrine Disruptor Screening Program Should 

       Establish Management Controls to Ensure Results..........................................                                      9


                   Concern Over Delays in Program Progress ................................................                           9

                   EPA Has Not Developed Key Management Controls for EDSP..................                                          14 

                   Conclusions .................................................................................................     19     

                   Recommendations ......................................................................................            19 

                   Agency Comments and OIG Evaluation ......................................................                         20 


   Status of Recommendations and Potential Monetary Benefits..............................                                           21




Appendices
   A 	 Agency Comments on Draft Report....................................................................                           22 


   B 	 OIG Evaluation of Agency Comments................................................................                             27


   C 	 Distribution ...........................................................................................................      30

                                                Chapter 1

                                                Introduction
Purpose
                    The purpose of our review was to determine whether the U.S. Environmental
                    Protection Agency (EPA) has planned and conducted the requisite research and
                    testing to evaluate and regulate endocrine-disrupting chemicals. We focused on
                    EPA’s Endocrine Disruptor Screening Program (EDSP) because it is the program
                    that focuses on screening and testing chemicals with endocrine-disrupting effects.

Background
                    Endocrine Systems

                    Endocrine systems, also referred to as hormone systems, are found in all
                    mammals, birds, fish, and many other organisms. The endocrine system regulates
                    biological processes in the body from conception through adulthood, including
                    the development of the brain and nervous system, the growth and function of the
                    reproductive system, and metabolism and blood-sugar levels. The female ovaries,
                    male testes, hypothalamus, pituitary, and thyroid glands are major constituents of
                    the endocrine system.

                    Endocrine Disruptors

                    Endocrine disruptors are chemicals that mimic, block, or otherwise disrupt the
                    normal function of hormones. Adverse effects in humans that may be endocrine
                    related include breast cancer, diabetes, obesity, infertility, and learning
                    disabilities. According to the National Institute of Environmental Health Sciences
                    (NIEHS), researchers have observed increases in endocrine-sensitive health
                    outcomes over the past 50 years. For example, breast and prostate cancer
                    incidence in 15 industrialized countries increased from 1969 to 1986, and ectopic
                    pregnancies1 increased fourfold in the United States from 1970 to 1987. Various
                    types of chemicals have been found to disrupt the endocrine systems of animals,
                    resulting in developmental and reproductive effects in fish and wildlife.

                    Key Legislation

                    In the 1990s, concerns grew about the presence of endocrine disruptors in food
                    and water and the potential risk they posed to humans and wildlife. Reflecting


1
    In an ectopic pregnancy, the fertilized egg develops outside of the uterus.


11-P-0215                                                                                            1
            these concerns, Congress passed both the Food Quality Protection Act (FQPA)
            and amendments to the Safe Drinking Water Act (SDWA) in August 1996.

            The FQPA required EPA to develop and implement a screening program using
            validated test systems and other scientifically relevant information to determine
            whether certain substances may have an effect in humans that is similar to that of
            a naturally occurring estrogen, or such other endocrine effects as the EPA
            Administrator may designate. The FQPA required that EPA test all pesticide
            chemicals. It also gave the Agency discretionary authority to test any other
            substance that may have an effect that is cumulative to an effect of a pesticide
            chemical if the EPA Administrator determined that a substantial population may
            be exposed to it. It required EPA to implement the program by August 1999.

            The SDWA amendments provided EPA additional discretionary authority to use
            the screening program created by FQPA to test substances, in addition to
            pesticides, that may be found in sources of drinking water, if the EPA
            Administrator determined that a substantial population may be exposed to them.
            Additionally, the Toxic Substances Control Act provided EPA with authority to
            require testing for and information about new and existing chemical substances.

            Endocrine Disruptor Screening and Testing Advisory Committee

            In 1996, EPA formed the Endocrine Disruptor Screening and Testing Advisory
            Committee (EDSTAC), a federal advisory committee composed of multiple
            stakeholders, to advise EPA on how to develop the screening and testing program.
            In its 1998 report, EDSTAC recommended that EPA expand the scope of the
            program to include androgenic and thyroid hormone effects. In addition,
            EDSTAC also recommended that EPA incorporate additional hormone systems as
            more data became available.

            In 1998, EDSTAC estimated that an initial universe of 87,000 chemicals would
            need to be screened. EDSTAC narrowed this estimate to 62,000 after eliminating
            polymers deemed too large to cause endocrine-mediated effects. EDSTAC
            recommended that EPA evaluate chemicals using validated assays arranged in
            two tiers:
                   Tier 1—a screening battery to identify substances that may interact with
                          the estrogen, androgen, and/or thyroid hormone systems.
                   Tier 2—a testing battery to determine, if warranted by the Tier 1
                          screening results, whether a substance exhibits endocrine-
                          mediated adverse effects. Tier 2 testing would identify,
                          characterize, and quantify those effects.
            Any chemical identified as an endocrine disruptor by Tier 2 testing would proceed
            to hazard assessment, the final step of the program. In hazard assessment, the
            endocrine-disrupting substance is identified and the relationship between dose and
            effect is established.


11-P-0215                                                                                        2
                 EDSTAC recommended that EDSP sort the universe of chemicals into four
                 categories based on existing data:

                          Category 1—exempted chemicals or those unlikely to produce an
                                     endocrine effect.
                          Category 2—chemicals with insufficient existing data to determine the
                                     likelihood of estrogen, androgen, and thyroid system
                                     interaction and, hence, for which Tier 1 screening would be
                                     required.
                          Category 3—chemicals with sufficient existing data to meet Tier 1
                                     screening requirements. Chemicals in this category may
                                     move directly to Tier 2.
                          Category 4—chemicals with sufficient existing data to bypass Tier 1
                                     screening and Tier 2 testing and move directly to hazard
                                     assessment.

                 EDSTAC anticipated that the large number of chemicals required to undergo
                 Tier 1 screening could overwhelm available resources. As a result, EDSTAC
                 recommended that chemicals be prioritized based on exposure-related
                 information, effects-related information, and statutory criteria, and then phased
                 into Tier 1 screening.

                 EDSP Proposed Statement of Policy

                 EPA established the EDSP in the Office of Science, Coordination, and Policy
                 within the Office of Chemical Safety and Pollution Prevention2 (OCSPP) and
                 published a Proposed Statement of Policy in 1998. The Agency based this policy
                 on EDSTAC’s recommendations. From fiscal year (FY) 1999 to FY 2009, EPA’s
                 EDSP received $86.6 million in program funding. Figure 1 provides a flow chart
                 overview of EPA’s EDSP as set forth in the Agency’s 1998 Proposed Statement
                 of Policy.




2
  This office was previously named the Office of Prevention, Pesticides and Toxic Substances. The name changed to
the Office of Chemical Safety and Pollution Prevention on April 22, 2010.


11-P-0215                                                                                                       3
            Figure 1: Proposed screening program overview




            Source: EPA’s Proposed Statement of Policy, Federal Register, Vol. 63, No. 248, December 28, 1998.

            Joint Subcommittee

            After Congress passed the FQPA and SDWA amendments in 1996, EPA asked
            the Federal Insecticide, Fungicide, and Rodenticide Act Scientific Advisory Panel
            (SAP) and EPA’s Science Advisory Board (SAB) to form a joint subcommittee to
            review a set of scientific issues concerning the development of the EDSP. The
            joint subcommittee also evaluated EDSTAC’s recommendations in its 1999
            report. The subcommittee supported EDSTAC’s recommendation that EPA
            evaluate potential endocrine disruptors for estrogenic, androgenic, and thyroid
            hormone effects, but cautioned EPA against expanding to additional hormone
            systems until knowledge of these systems and assay techniques matured. The joint
            subcommittee also recommended that EPA review screening data for 50 to 100
            compounds, revise its process as necessary, and eliminate methods that do not
            work.

            Three Major Parts of EDSP Implementation

            The Agency is implementing EDSP in three major parts:

                        Assay development and validation
                        Chemical selection
                        Development of program policies and procedures

                    Assay Development and Validation

                    In accordance with FQPA, assays first had to be validated prior to their
                    use in EDSP. EPA devised a five-step process designed to meet the
                    requirements that assays be both reliable and relevant. Table 1 shows the
                    key steps in assay validation.


11-P-0215                                                                                                 4
            Table 1: The assay validation process
                    Step                           Description of key activities
             Method                 The Agency creates an initial testing protocol to be used
             development            for the prevalidation studies.
             Prevalidation          The Agency optimizes and standardizes the protocol and
                                    develops preliminary data on reproducibility within a
                                    single laboratory (e.g., performance criteria).
             Validation             Validation tests the transferability of the protocol to other
                                    laboratories, determines the reliability of the protocol, and
                                    further documents its relevance.
             Peer review            Independent experts evaluate the scientific and technical
                                    work products.
             Regulatory             The Agency informs the public which assays will be
             acceptance and         required for chemicals as mandated under the FQPA.
             implementation
            Source: OIG-created table based on EPA’s EDSP website:
            http://www.epa.gov/scipoly/oscpendo/pubs/assayvalidation/status.htm.

            EPA established two successive federal advisory committees, the
            Endocrine Disruptor Methods Validation Subcommittee and the Endocrine
            Disruptor Methods Validation Advisory Committee, to advise the Agency
            about assay validation. The Agency announced the availability of the
            Tier 1 screening battery of 11 validated assays and related test guidelines
            in October 2009. The Agency is still validating four of five Tier 2 assays.

            Chemical Selection

            In December 2002, EPA issued a Federal Register notice asking for public
            comment on its proposed chemical approach for the initial round of
            screening. EPA proposed to initially (1) select and screen approximately
            50 to 100 chemicals to help further refine the program, and (2) focus only
            on pesticide chemicals to concentrate on a smaller and more manageable
            universe of chemicals. In 2005, EPA published its chemical selection
            approach for the initial round of screening. In 2007, EPA issued for public
            comment the draft list of pesticide chemicals to be considered for
            screening. After extended public comment, the Agency released the final
            list of 67 pesticide chemicals in 2009.

            To further satisfy the FQPA mandate, the Agency plans to issue orders for
            pesticides when they enter registration review. The Registration Review
            Program requires all currently registered pesticides to be reevaluated to
            ensure they meet current scientific and regulatory standards.

            Development of EDSP Policies and Procedures

            In addition to the 1998 Proposed Statement of Policy and several Federal
            Register notices about selecting and prioritizing chemicals, the Agency
            issued a Federal Register notice in December 2007 asking for public



11-P-0215                                                                                           5
                          comment on the draft policies and procedures for initial Tier 1 screening.
                          The Agency issued its revised policies and procedures for initial Tier 1
                          screening in April 2009, which included the statutory requirements
                          associated with issuing test orders.

                 Office of Research and Development

                 EPA’s Office of Research and Development (ORD) provided support for EDSP.
                 The Agency established the Endocrine Disruptor Research Program in 1995, and
                 ORD identified endocrine disruptors as one of its top six research priorities in
                 1996. Since 1998, ORD has issued a research plan and two multiyear plans
                 concerning endocrine disruptors. Within the multiyear plans, ORD has
                 specifically identified the support of EDSP as one of its three long-term goals.
                 Toward this goal, ORD conducted the underlying research to develop 9 of the 11
                 assays used for Tier 1 screening and 4 of the 5 assays used for Tier 2 testing, and
                 helped develop standardized protocols for Tier 1 and Tier 2 assays. From FYs
                 1999 to 2010, ORD received $131.5 million for endocrine disruptor research.3

                 Natural Resources Defense Council Settlement Agreement

                 In August 1999, the Natural Resources Defense Council (NRDC) and several
                 other parties filed a lawsuit against EPA for failing to meet a statutory deadline to
                 implement EDSP by August 1999. The case was settled in January 2001 when the
                 parties signed a settlement agreement that required EPA to, among other things,
                 use its best efforts to:

                         Publish and solicit public comment on an initial list of chemicals for
                          screening by December 31, 2002.
                         Validate all Tier 1 assays except the frog thyroid assay4 by December 31,
                          2003.
                         Require testing for certain Tier 1 screens by December 31, 2003.
                         Require testing for certain Tier 2 tests by December 31, 2004.
                         Validate the Tier 2 mammalian two-generation assay by December 31,
                          2004.
                         Validate other Tier 2 assays by December 31, 2005.

                 Further, EPA committed to provide NRDC with semiannual updates if EPA
                 anticipated it would not meet its estimated completion dates.




3
  Not all of the $131.5 million for endocrine disruptor research directly supported EDSP. For example, only $14.6
million of the $64 million ORD received for endocrine disruptor research from FYs 2004 to 2009 was budgeted to
support endocrine disruptor screening and testing.
4
  In early 2003, EPA decided not to continue the development of the frog thyroid assay. The Agency replaced the
assay with an amphibian metamorphosis assay.


11-P-0215                                                                                                           6
Noteworthy Achievements
                   Working with ORD, contract labs, and various stakeholders, EDSP coordinated
                   the development of screening assays to identify the potential to interact with the
                   estrogen, androgen, or thyroid hormonal systems. As a result of this effort, 11
                   Tier 1 assays were validated by 2009 to screen chemicals for potential endocrine-
                   disrupting effects. Once these assays were validated, EPA issued 758 test orders5
                   to registrants, manufacturers, and importers of the 67 pesticide chemicals selected
                   for initial screening.

                   To promote transparency, EPA established a database on its website in 2009 that
                   shows Congress, industry, and the public the status of the EDSP test orders for the
                   67 pesticide chemicals for which the Agency has released Tier 1 testing orders.
                   The database includes the name of each chemical, the test order number, the
                   company name and number, the 90-day response due date, the status of testing,
                   and the test order due date. EPA updates the database weekly. EPA established
                   another database in 2010 that includes the order recipient’s response to the test
                   orders, EPA’s response, and the summary of EPA’s response to other
                   scientifically relevant information.

Scope and Methodology

                   To address our objectives, we reviewed EPA strategic planning documents, EPA
                   annual performance plans, EPA’s EDSP website, Federal Register notices, federal
                   advisory committee reports, and applicable legislation. We also analyzed EPA’s
                   settlement agreement with NRDC and subsequent status reports, EDSP work
                   plans, ORD’s research and multiyear plans, and the Board of Scientific
                   Counselors’ reviews of EPA’s Endocrine Disruptor Research Program. We also
                   reviewed the Office of Management and Budget’s 2004 Program Assessment
                   Rating Tool review of endocrine disruptors and EPA’s 2005 Strategic Review of
                   EDSP. We discussed and evaluated endocrine disruptor management controls,
                   assay validation and testing, program progress and challenges, organizational
                   structure, oversight, legislative developments, research, and other endocrine
                   disruptor issues with EPA managers and staff from OCSPP, ORD, and Office of
                   Water.

                   We also discussed these issues with representatives of the NIEHS, the State of
                   Illinois environmental staff, nongovernmental environmental groups (NRDC, The
                   Endocrine Disruption Exchange), an industry association (American Chemistry
                   Council), and academic institutions (University of Massachusetts and North
                   Carolina State University). These entities were selected because of their

5
  Test order recipients must report to EPA, within 90 days of test order issuance, whether they will generate new
data, enter into a joint data agreement with other test order recipients, submit or cite existing data, or voluntarily
request to cancel their pesticide registration. If test order recipients choose to generate data or enter into a joint data
agreement, they must submit the requested data in the test order within 2 years of the issuance of the test order.


11-P-0215                                                                                                                     7
            involvement in EPA’s endocrine disruptor advisory committees, research
            expertise, or early development of an endocrine-disrupting chemicals’ strategy.
            We attended the February 25, 2010, U.S. House of Representatives, Committee
            on Energy and Commerce, Subcommittee on Energy and the Environment
            hearing, “Endocrine Disrupting Chemicals in Drinking Water: Risks to Human
            Health and the Environment.” We did not identify any previous EPA OIG or U.S.
            Government Accountability Office audit/evaluation reports on EPA’s EDSP
            issued from 1996 to August 2010.

            We conducted our work from December 2009 to February 2011 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            Review of Management (Internal) Controls

            Generally accepted government auditing standards require that auditors obtain an
            understanding of management controls significant to the audit objectives and
            consider whether specific management control procedures have been properly
            designed and placed in operation. We reviewed EDSP management controls,
            including program planning, policies and procedures, and outcome and output
            performance measures. In addition, we reviewed compliance with applicable
            laws, including FQPA. Our findings pertaining to specific internal and
            management controls are discussed in chapter 2 of this report.




11-P-0215                                                                                       8
                                            Chapter 2

        EPA’s Endocrine Disruptor Screening Program 

          Should Establish Management Controls to 

                      Ensure Results 

                  Fourteen years after passage of the FQPA and SDWA amendments, EDSP has not
                  determined whether any chemical is a potential endocrine disruptor.6 EDSP has
                  not developed a management plan laying out the program’s goals and priorities or
                  established outcome performance measures to track program results. EDSP
                  missed milestones for assay validation and chemical selection set forth in the
                  2001 NRDC settlement agreement. Completed activities exceeded their targets by
                  about 4½ to 6 years. An EDSP manager explained that EDSP was unaware of the
                  complexities, resources, and time inherent in validating assays until years after the
                  2001 settlement agreement was signed. However, EDSP did not substantially
                  revise its milestones in its status reports to NRDC for completing assay
                  validation. In addition, EDSP has not created a final statement of policy, finalized
                  specific procedures to evaluate Tier 1 screening results, or established specific
                  procedures to evaluate Tier 2 testing results. We acknowledge the difficulties
                  involved in establishing an effective endocrine disruptor screening program. An
                  EDSP manager told OIG that EDSP plans to develop a management plan.
                  However, EDSP had not done so at the time of our review. We believe EDSP
                  should develop and implement plans and performance measures to establish
                  management control and accountability within the program.

Concern Over Delays in Program Progress
                  EPA’s EDSP has missed the milestones for key activities set forth in the 2001
                  NRDC settlement agreement and in its status reports to NRDC. The program also
                  has not set milestones for other key activities. EDSP managers provided us with
                  reasons why program implementation has gone slowly. These reasons included
                  (1) being unaware of the complexities, resources, and time inherent in validating
                  assays; (2) problems hiring contractors; and (3) difficulties with contractors being
                  unable to do the work needed. Concerned with EDSP progress, Congress
                  instituted reporting requirements in 2007 and specified deadlines for certain
                  activities in 2009. For example, in 2009, the House Committee on Appropriations
                  directed EPA to develop a new list of chemicals for testing as well as develop
                  criteria for analysis of the Tier 1 data received from industry by October 30, 2010.
                  On November 17, 2010, EDSP published “Second List of Chemicals for Tier 1

6
 EDSP is not the only mechanism available to the Agency to regulate endocrine-disrupting chemicals. According to
EPA’s August 2010 Report to Congress on Pesticide Licensing and Endocrine Disruptor Screening Activities,
through September 30, 2009, EPA regulated 79 of the 1,095 pesticides subjected to Federal Insecticide, Fungicide,
and Rodenticide Act regulatory review on the basis of endocrine effects. These pesticides were not screened, tested,
or regulated as the result of EDSP actions.


11-P-0215                                                                                                          9
                 Screening” in the Federal Register for public comment. EDSP published “Weight
                 of Evidence Guidance for Evaluating the Results of Tier 1 Screening To Identify
                 Candidate Chemicals for Tier 2 Testing” in the Federal Register for public
                 comment on November 4, 2010.

                 Key EDSP Milestones Unmet or Not Established

                 EDSP established milestones for the publication of a draft list of chemicals for
                 testing, the completion of Tier 1 assay validation, and the start of Tier 1 and
                 Tier 2 testing in the 2001 NRDC settlement agreement. However, EDSP did not
                 meet these milestones. The difference between the actual completion dates and
                 the 2001 NRDC settlement agreement milestones ranged from about 4½ to
                 6 years. The Agency also did not meet key milestones for completing assay
                 validations provided in its updates to NRDC. The initial milestones for Tier 1
                 assays provided to NRDC in updates were missed by about 2 to 4 years. EDSP
                 extended its milestones for completing validation of Tier 1 assays multiple times.
                 For example, EDSP extended the milestones in 9 of 11 updates it provided to
                 NRDC for the estrogen receptor binding assay by a total of 4½ years (54 months).
                 This trend is continuing for the validation of Tier 2 assays. Furthermore, the
                 Agency has yet to set milestones for other key activities, including publication of
                 a third list of chemicals for screening and the development of criteria to analyze
                 Tier 2 testing/hazard assessment results. Table 2 shows the NRDC settlement
                 agreement milestones and actual completion dates for key EDSP activities as of
                 October 2010. Examples follow the table.
Table 2: NRDC settlement agreement milestones and actual completion dates
                                     2001 NRDC settlement
          Key activities          agreement milestone datea   Actual completion date       Length of delay
 Publication of draft initial
 chemicals list for Tier 1 and    December 31, 2002          June 18, 2007               4 years, 6 months
 public comment initiation
 Completion of Tier 1 assay
                                  December 31, 2003          October 21, 2009            5 years, 10 months
 validation
 Start of testing using certain
                                  December 31, 2003          October 21, 2009            5 years, 10 months
 Tier 1 screens
 Start of testing using certain                              (b)
                                  December 31, 2004                                      6 years, 2 monthsb
 Tier 2 tests
Sources: OIG-created table based on NRDC settlement agreement, January 2001, Federal Register Notice Vol. 72,
No. 116, and Federal Register Notice Vol. 74, No. 202.
        a
          NRDC settlement agreement milestones were later than the milestones proposed in the 1998 EDSTAC 

        report and the 1998 Proposed Statement of Policy.

        b
          Not Completed as of February 2011.




                 EPA informed NRDC on December 23, 2002, that it was delaying publication of
                 a proposed initial list of chemicals for EDSP screening 8 days prior to the date
                 EPA had agreed to publish the list. The Agency wanted to obtain public comment
                 on a simplified chemical selection approach, which focused on using exposure
                 data rather than exposure and effects data. The simplified approach also proposed
                 that public nominations be excluded. According to the Agency, one of the key


11-P-0215                                                                                                     10
            reasons for the change was that prospective chemical selection methods
            envisioned to be able to expeditiously obtain effects data for large numbers of
            chemicals were not ready for use. Another reason was that EPA received
            comments from chemical manufacturers that publishing the list of chemicals too
            far in advance might lead users not to purchase their chemicals. EPA’s December
            2002 status report to NRDC stated EDSP believed that the manufacturers’
            concerns were unfounded from a scientific or risk basis. However, EDSP decided
            that the public could misinterpret the Agency’s basis for selecting chemicals, so
            publication was delayed. On December 30, 2002, EPA published a Federal
            Register notice asking for public comment on its proposed chemical selection
            approach. More than 4 years passed between EPA’s decision to simplify its
            approach and the publication of a draft list in June 2007. According to EDSP
            managers, the delay in publishing the draft list did not hinder the overall program
            pace because assay validation had to be completed before screening could move
            forward. EDSP management decided in 2004 that it would not publish the draft
            list until 1 year before validation was completed.

            Validation of Tier 1 assays took almost 6 years longer than estimated in the 2001
            NRDC settlement agreement. In his February 2010 testimony before a House
            Energy and Commerce subcommittee, the EPA Deputy Assistant Administrator
            for OCSPP explained that because of the many complexities in methods
            development and validation of Tier 1 assays, validation took 10 years for Tier 1
            assays and is ongoing for Tier 2 assays. For example, to accomplish assay
            validation, EDSP enlisted the assistance of contract laboratories. According to
            EDSP managers, they had problems with hiring contractors and difficulties with
            contractors being able to do the work needed. Furthermore, the Agency believed it
            would take, at most, 1 year for prevalidation of the assays and 1 year to validate
            the studies. However, these processes took much longer than anticipated.

            An EDSP manager explained that EDSP was unaware of the complexities,
            resources, and time inherent in validating assays until several years after the 2001
            NRDC settlement agreement was signed. However, EDSP did not substantially
            revise its milestones to complete assay validation. Instead, EDSP revised its
            estimated completion dates for Tier 1 assays in a piecemeal fashion in its status
            updates to NRDC. As an example, table 3 shows how EDSP extended the
            estimated completion dates for 9 of 11 updates EPA provided to NRDC for the
            estrogen receptor binding assay, collectively a delay of 4½ years (54 months).




11-P-0215                                                                                     11
            Table 3: Reported delays of the estrogen receptor binding assay
                                                           Estimated completion
                                  Date of status report         date of assay      Delay from previous
                   Assay                 to NRDC                 validation            status report
             Estrogen receptor May 22, 2003               October 2004             N/A
             binding assay        January 23, 2004        April 2005               6 months
                                  March 8, 2005           January 2006a,b          9 months
                                  August 1, 2005          January 2006 a,b         No change
                                  February 15, 2006       January 2007b            12 months
                                  July 20, 2006           January 2007b             No change
                                  January 31, 2007        July 2007b               6 months
                                  May 29, 2007            September 2007b          2 months
                                  December 28, 2007       March 2008b              6 months
                                  June 4, 2008            December 2008            9 months
                                  December 17, 2008       March 2009               3 months
                                  June 17, 2009           Completed—April 2009     1 month
                                                    Total delay                    54 months
            Source: OIG-created table based on EPA status reports to NRDC from May 2003 to June 2009.
                    a
                      The NRDC status reports for March 8, 2005, and August 1, 2005, stated that estimated
                       date of validation completion was July/August 2005 but completion could be delayed
                       until January 2006 if an additional study was required. We used the latest reported date
                       in the table.
                     b
                      The dates listed are estimates for interlab validation not including peer review.

            EPA initially expected to validate the estrogen receptor binding assay through the
            review of existing data and literature rather than an intensive multilaboratory
            validation study. An expert panel determined that data were insufficient to
            validate the assay and recommended that a multilaboratory study be done. EPA
            initiated a multilaboratory validation study in August 2002 and estimated that
            peer review would be completed by October 2004. However, the assay was not
            ready for use until April 2009, a 4½-year delay. EDSP’s reports to NRDC noted
            problems such as labs not producing reasonable results, equipment failures, and
            contract issues.

            The slippage in estimated completion dates also occurred in other Tier 1 assays.
            For example, table 4 shows several assays and the differences between the
            estimated date of completion of peer review in the May 22, 2003, status report to
            NRDC and the completion of peer review as reported in the June 17, 2009, status
            report.
            Table 4: Delays in completion of the peer review of selected Tier 1 assays
                                           Estimated date of        Peer review
                       Assays                 peer review           completed           Elapsed time
             Hershberger assay            March 2004             September 2006    2½ years
             Male and female rodent
                                          3rd/4th quarter 2004 November 2007       Nearly 3 years
             pubertal assays
             Aromatase assay              3rd/4th quarter 2004 January 2008        About 3 years
             Fish reproductive
                                          3rd/4th quarter 2004 January 2008        About 3 years
             screening assays
            Sources: OIG-created table based on EPA’s status reports to NRDC, May 22, 2003, and
            June 17, 2009.

            While Tier 1 assays have all been validated, four of five Tier 2 assays have not
            been validated. Their completion dates continue to be revised. For example,


11-P-0215                                                                                                   12
            table 5 shows delays in Tier 2 assay validations of 1½ to 2 years as estimated by
            EDSP from 2006 to 2009. If delays continue, some Tier 2 assays may not be
            validated when Tier 2 testing is scheduled to begin in 2012.
            Table 5: EPA’s estimated timeframes for validation completion of Tier 2 assays
                                             Estimated date of           Estimated date of           Change in
                                           validation completion       validation completion         estimated
                                            (NRDC status report         (NRDC status report         completion
                     Assays                    February 2006)             December 2009)a              dates
             Fish-two generation           December 2009              July 2011                   About 1½ years
             Avian-two generation          December 2009              December 2011               2 years
             Mysid-two generation          December 2008              December 2010               2 years
             Amphibian growth
                                       December 2009             August 2011               About 1½ years
             and reproduction
            Source: OIG-created table based on EPA’s status reports to NRDC, February 15, 2006, and
            December 31, 2009.
                     a
                         Estimated date of completion included interlab validation not including peer review.

            We are concerned about the continuing program delays. EPA should develop a
            management plan for EDSP so that EPA’s leadership, Congress, and the public
            can assess whether the goals and key activities of the program are being achieved
            within reasonable cost and schedule.

            Congress Directs EPA to Action Due to Lack of Program Progress

            In recent years, Congress has expressed concerns about EDSP’s lack of progress
            and has attempted to spur the Agency into action. For example, in the House
            Appropriations Committee Report for FY 2008 (Report 110-187), Congress stated
            that EPA was taking too long to implement EDSP and stated its expectation that
            EPA would accelerate the schedule for completing assay validation. In an effort to
            get results, Congress required the Agency to report semiannually initially and then
            annually on a number of EDSP-related items, including endocrine disruption
            determinations for pesticide regulation and the status of assay validations. After
            reviewing program progress, in 2009 Congress directed the program to take
            several actions in its FY 2010 House Appropriations Committee Report (House
            Report 111-180). Specifically, Congress directed EPA’s EDSP to:

                    	 Create a database of the initial pesticide chemicals to be screened in
                       EDSP, and make the database available on EPA’s website.
                    	 Develop and publish criteria within 1 year of enactment (i.e., by
                       October 30, 2010) for evaluating the results of Tier 1 screening and for
                       determining whether a chemical should undergo Tier 2 analysis.
                    	 Publish within 1 year of enactment (i.e., by October 30, 2010) a
                       second list of no less than 100 chemicals for screening that includes
                       drinking water contaminants, and issue 25 orders per year for the
                       testing of these chemicals.
                    	 Timely reevaluate the battery of screens, replacing outdated screens
                       with updated, more efficient screens that have been validated.



11-P-0215                                                                                                       13
            The Agency met the first 2009 congressional direction by creating a database of
            67 pesticide chemicals that are being currently screened. The database is updated
            weekly and can be found on EPA’s EDSP website. The Agency also recently
            published two documents in the Federal Register for public comment: “Weight of
            Evidence Guidance for Evaluating the Results of Tier 1 Screening To Identify
            Candidate Chemicals for Tier 2 Testing,” on November 4, 2010, and “Second List
            of Chemicals for Tier 1 Screening,” on November 17, 2010.

      EPA Has Not Developed Key Management Controls for EDSP
            The Agency has not developed the key management controls needed to
            implement EDSP and carry out its statutory and discretionary authority under
            FQPA, SDWA amendments, and the Toxic Substances Control Act. Management
            controls help provide reasonable assurance that the goals and objectives of a
            program will be accomplished and that resources are allocated efficiently and
            effectively. They also help ensure accountability and enhance transparency of the
            steps needed to implement a program and achieve results over time.

            EDSP Has Not Established Key                   Management controls are the
            Plans, Policies, and Procedures to             organization, policies, and procedures
            Implement the Program                          used by agencies to reasonably
                                                           ensure that (i) programs achieve their
                                                           intended results; (ii) resources are
            EDSP has not developed a management
                                                           used consistent with agency mission;
            plan or a final statement of policy, has       (iii) programs and resources are
            not finalized specific procedures to           protected from waste, fraud, and
            evaluate Tier 1 screening results, and has     mismanagement; (iv) laws and
            not established criteria to evaluate Tier 2    regulations are followed; and (v)
                                                           reliable and timely information is
            testing results with associated milestones
                                                           obtained, maintained, reported and
            to implement EDSP over time. Such              used for decision making.
            plans, policies, and procedures help           Management controls, in the broadest
            programs establish accountability, track       sense, include the plan of organization,
            progress, and enhance transparency.            methods and procedures adopted by
                                                           management to ensure that its goals
                                                           are met. Management controls include
            The 1998 EDSTAC report developed an            processes for planning, organizing,
            implementation path for EDSP. EPA              directing, and controlling program
            published a Proposed Statement of              operations.
            Policy in 1998 that closely followed this
                                                         Source: Office of Management and Budget
            guidance. In 1999, the SAB/SAP joint         Circular A-123, Management Accountability
            subcommittee issued its final report         and Control. (June 21, 1995.)
            recommending that EPA review
            screening data from 50 to 100 compounds. EPA decided to follow this
            recommendation and revised its chemical selection process, which deviated from
            the process laid out in the 1998 proposed policy. However, the Agency did not
            develop a management plan or revise its 1998 Proposed Statement of Policy to
            establish a road map for the program, even when key program changes occurred.
            Without a road map for the program, the Agency announced new program
            developments in a piecemeal fashion through periodic Federal Register notices.


11-P-0215                                                                                         14
                   A management plan would help EPA’s leadership, Congress, and the public
                   assess whether the goals and key activities of the program are being achieved
                   within reasonable cost and schedule. The plan also needs to:

                            (1) include specific final criteria for evaluating chemicals after Tier 1
                                screening and establish specific criteria for evaluating chemicals after
                                Tier 2 testing/hazard assessment phases;
                            (2) define the universe of chemicals EDSP plans to evaluate for testing;
                                and
                            (3) state what method EDSP will use to prioritize chemicals in the future.

                   Criteria for Evaluating Chemicals Need to Be Finalized

                   After nearly 14 years, and after having issued test orders for the first 67 chemicals
                   to undergo Tier 1 screening, EPA has neither finalized specific criteria for
                   evaluating chemicals after Tier 1 screening is completed, nor established specific
                   criteria for evaluating chemicals after Tier 2 testing is completed, including
                   carrying out the hazard assessment phase of the program.

                   The 2010 House Appropriations Committee language directed EPA to develop
                   criteria to evaluate the results of Tier 1 screening within 1 year of enactment
                   (October 30, 2010). The Agency published draft Tier 1 evaluation criteria in the
                   November 4, 2010, Federal Register for public comment, but EDSP managers
                   estimated that the criteria will not be finalized until 2011. EPA is scheduled to
                   begin receiving Tier 1 screening data from industry in October 2011. If EPA does
                   not finalize specific criteria before then, the Agency will receive Tier 1 test order
                   data without having formal procedures to evaluate it, increasing the risk of the
                   appearance of bias7 and further delaying program results. We believe the program
                   should have established criteria for the evaluation of chemicals and should not
                   have had to be prompted by Congress to do so.

                   Universe of Chemicals for Screening and Testing Not Clearly Defined

                   EPA has not clearly defined the universe of chemicals it plans to evaluate over
                   time. EDSTAC estimated an initial universe of more than 87,000 chemicals, but
                   narrowed this estimate to 62,000 after eliminating some substances that were
                   unlikely to cause endocrine-mediated effects. In early 2010, an OCSPP official
                   estimated that approximately 40,000 chemicals needed to be screened and tested
                   for potential endocrine-disrupting effects. An EDSP manager was unsure how
                   these 40,000 chemicals were determined, but noted that he believed the number of
                   chemicals that should be screened and tested is probably lower than 40,000.

                   We understand that the universe of substances with potential to cause endocrine-
                   mediated effects may change over time. However, the basis for deleting potential

7
 Potential exists for the Agency to be accused of bias if it waits until after it sees the data to decide how it will
proceed.


11-P-0215                                                                                                               15
            substances should be clearly defined. The Agency must test all pesticides as
            required by FQPA. EPA needs to be transparent regarding how it will use its
            discretionary authority to define what chemicals will be screened. EDSP needs a
            management plan to define how many chemicals should be screened as of a
            particular date so the Agency can prioritize those chemicals based on their
            likelihood of being endocrine disruptors. Absent a better-defined universe, the
            Agency cannot estimate (1) the amount of resources it will take to effectively sort
            and prioritize potential endocrine disruptors for screening, and (2) when screening
            and testing will be completed.

            EDSP Needs to Consistently Prioritize Chemicals Using
            Recommended Techniques

            Besides defining the universe of chemicals for testing, EDSP’s management plan
            needs to define what methods it will use to objectively prioritize chemicals so that
            those chemicals that are likely endocrine disruptors are evaluated first. As stated
            in the EDSTAC report, screening and testing can be a resource-intensive process
            for both the public and private sectors, so priorities must be set carefully to ensure
            that the chemicals of greatest concern are given priority. However, the Agency
            did not use the risk-based approach or public nomination process recommended
            by the EDSTAC and SAB/SAP joint subcommittee.

            The 1998 EDSTAC report recommended that the Agency prioritize chemicals
            based on their potential for adverse effects, widespread exposure to humans and
            the environment, and statutory criteria. EDSTAC recommended the use of various
            sources, including effects data, exposure data, and public nominations. The
            SAB/SAP joint subcommittee also approved this approach, which was adopted by
            the Agency in its 1998 Proposed Statement of Policy. The SAB/SAP joint
            subcommittee found that the chemical selection approach should be based on both
            effect and exposure data following guidance in National Research Council and
            EPA risk assessment literature.

            However, the Agency deviated from the recommended approach when selecting
            its first list of chemicals for initial screening. EPA decided not to use effects data
            because prospective chemical selection methods envisioned to be able to obtain
            effects data for large numbers of chemicals were not ready for use. The Agency
            also stated that it “lacked sufficient information and experience to determine
            whether a chemical should be designated as a potential endocrine disruptor.” EPA
            also deferred accepting public nominations to keep the initial effort simpler and to
            ensure a relatively prompt timeline for the first suite of Tier 1 screening results.
            Congress directed EPA to develop the second list of 100 chemicals for initial
            screening and testing by October 30, 2010. EDSP again deviated from the
            recommended approach. In addition to not using effects data or public
            nominations, EDSP did not use exposure data to prioritize the candidate
            chemicals in relation to one another.




11-P-0215                                                                                      16
            We believe it is important for EDSP to prioritize chemicals using the effects,
            exposure, and public nomination-based approach as recommended by EDSTAC
            and approved by the SAB/SAP joint subcommittee. Using the suggested method,
            the Agency could develop a list of chemicals for screening that are more likely to
            be potential endocrine disruptors. Irrespective of the selection method the Agency
            chooses, it needs to develop a management plan stating how it will objectively
            prioritize chemicals in the future, in order to promote consistency and
            transparency.

            According to an EDSP manager, EDSP is planning to develop a management plan
            that includes estimates of budget requirements covering a longer time horizon.
            We believe implementing such a plan could improve the accountability and
            transparency of the program.

            EDSP Has Not Established Key Performance Measures

            EDSP has not established short-term, intermediate, and long-term outcome
            performance measures to track intended results of the program. Since FY 2007,
            EDSP measured its program progress with two output performance measures: one
            tracking efficiency
            and another tracking     Key performance measurement terms and definitions
            the number of            Term            Definition
            validated assays.        Outputs         Quantitative or qualitative measures of
            EDSP needs a                             activities, work products, or actions
            management plan to
            establish what results   Short-term      Changes in learning knowledge,
                                     outcomes        attitude, skills, or understanding that result
            the program wants to                     from program activities and are needed to
            achieve and then                         achieve the end outcome
            develop outcome
            performance measures 	 Intermediate Changes in knowledge, behavior, or
            to track the results of  outcomes        conditions that result from program activities
                                                     and are needed to achieve the end outcome
            the program. In
            addition, EDSP needs     Long-term       The ultimate outcomes of program activities
            additional output        outcomes
            measures to track the
                                     Sources: OIG-created table based on OIG Report No.
            progress of program      2006-P-00006, EPA Performance Measures Do Not Effectively
            activities that lead to  Track Compliance Outcomes, December 15, 2005; Indiana Office
            program results.         of Management & Budget and State Personnel Department
                                       Performance Measurement Seminar, May 18, 2007.


            For the last 3 years, EDSP measured its performance using two output measures.
            Prompted by the Office of Management and Budget, EPA created an output
            measure to monitor EDSP efficiency, which focused on reducing contract costs
            1 percent per study for assay validation. EDSP met this goal every year and
            significantly exceeded it in FYs 2007 and 2009. However, an EDSP manager said
            that the measure is meaningless to them because it does not measure the



11-P-0215                                                                                       17
            efficiency of EDSP. EDSP management recommended that the measure be
            discontinued in FY 2012. According to EDSP managers, the Office of
            Management and Budget has agreed that the measure does not seem useful at this
            time. Table 6 shows the target and actual percent reduction efficiency measures
            from FY 2007 through FY 2009.
            Table 6: EDSP efficiency measure from FYs 2007 through 2009
                                           FY 2007          FY 2008                          FY 2009
                     Measures
                                       Target Actual Target Actual                      Target     Actual
             Contract cost reduction
             per study for assay
                                        1%       63%a    1%       3%                      1%         38%
             validation efforts in the
             EDSP
            Source: Office of Science Coordination and Policy, OCSPP, EPA.
                    a
                        According to EDSP managers, this information should have been reported as 37 percent.

            EDSP’s other output measure measured the cumulative number of assays that
            have been validated (numerator) versus the total number of assays under
            consideration (denominator). Table 7 shows the cumulative assay results from
            FYs 2006 through 2009. EDSP missed its targeted goals in FYs 2006 and 2007
            but came close to meeting its targets in FYs 2008 and 2009. This measure was
            dropped for FY 2011 because the Tier 1 assays have been validated, which was
            the focus of the measure, according to EDSP managers.
            Table 7: EDSP cumulative assay measure from FYs 2006 through 2009
                              FY 2006          FY 2007            FY 2008                            FY 2009
             Measures     Target Actual Target       Actual   Target Actual                      Target Actual
             Cumulative
             number of
             assays that  11/20     2/21    8/20      3/20    13/20    12/20                      14/19      13/19
             have been
             validated
            Source: Office of Science Coordination and Policy, OCSPP, EPA.

            Notes: No assays were validated in FY 2005, which is the baseline. The denominator dropped from
            21 to 20 in FY 2007 because EPA decided to discontinue efforts to validate the sliced testes assay
            on the basis of recommendations from the Endocrine Disruptor Methods Validation Advisory
            Committee. The denominator dropped from 20 to 19 in FY 2009 because the in utero lactation
            protocol demonstration study confirmed that the assay was too complex and time consuming to be
            considered as a Tier 1 screen.



            EDSP has proposed three new performance measures for FY 2012:

                    1.	 Number of chemicals for which EDSP decisions have been completed.
                    2.	 Number of chemicals for which EDSP Tier 1 test orders have been
                        issued.
                    3.	 Number of screening and testing assays for which validation decisions
                        have been reached.



11-P-0215                                                                                                   18
            The above measures proposed by EDSP are output measures. EDSP needs to
            establish outcome performance measures to ensure program results track to key
            program activities, such as Tier 2 testing and progress toward hazard assessment,
            and to assess whether program activities are leading to desired results. Developing
            a management plan would ensure the program’s goals and priorities are
            transparent so EPA’s leadership and Congress can assess whether the goals of the
            program are being achieved within reasonable cost and schedule.

Conclusions
            EDSP has made little progress in identifying endocrine-disrupting chemicals.
            While we acknowledge that EDSP encountered difficulties and delays, its lack of
            progress is also due to EPA’s lack of management control over the program.
            OCSPP leadership should improve its oversight of the program to ensure that
            proper management controls are in place so that progress and accountability can
            be determined. In our opinion, EDSP will not be able to establish an effective
            screening and testing program without establishing program control and
            accountability. As a result, achieving the goal of protecting human health and the
            environment from endocrine disruptors will continue to be delayed.

Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1.	 Define and identify the universe of chemicals for screening and testing to
                   establish the scope of the program.

               2.	 Develop and publish a standardized methodology for objectively
                   prioritizing the universe of chemicals for screening and testing, including
                   elements recommended by the federal advisory committees such as use of
                   effects and exposure data, as well as public nominations.

               3.	 Finalize specific criteria for evaluating the Tier 1 screening data received
                   and establish specific criteria for evaluating the Tier 2/hazard assessment
                   testing data received.

               4.	 Develop short-term, intermediate, and long-term outcome performance
                   measures, and additional output performance measures, with appropriate
                   targets and timeframes, to measure the progress and results of the
                   program.

               5.	 Develop and publish a comprehensive management plan for EDSP,
                   including estimates of EDSP’s budget requirements, priorities, goals, and
                   key activities covering at least a 5-year period.



11-P-0215                                                                                     19
               6.	 Annually review the EDSP program results, progress toward milestones,
                   and achievement of performance measures, including explanations for any
                   missed milestones or targets.

Agency Comments and OIG Evaluation
            The Agency generally agreed with our findings and conclusions, and stated that
            our recommendations were consistent with the Agency’s vision for the future
            management of the EDSP. OCSPP’s responses to Recommendations 4 and 5 were
            sufficient to meet the intent of the recommendations. However, OCSPP’s
            responses to recommendations 1, 2, 3, and 6 did not provide sufficient
            information for us to determine whether the Agency’s actions will meet the intent
            of the recommendations. Therefore, recommendations 1, 2, 3, and 6 will remain
            unresolved pending receipt of additional information or clarification from
            OCSPP. Appendix A contains the Agency’s response to our draft report.
            Appendix B has our detailed evaluation of that response.




11-P-0215                                                                                  20
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                      Planned
Rec.        Page                                                                                                     Completion   Claimed    Agreed-To
No.          No.                           Subject                           Status1        Action Official             Date      Amount      Amount

 1            19    Define and identify the universe of chemicals for          U       Assistant Administrator for
                    screening and testing to establish the scope of the                  Chemical Safety and
                    program.                                                             Pollution Prevention

 2            19    Develop and publish a standardized methodology             U       Assistant Administrator for
                    for objectively prioritizing the universe of chemicals               Chemical Safety and
                    for screening and testing, including elements                        Pollution Prevention
                    recommended by the federal advisory committees
                    such as use of effects and exposure data, as well
                    as public nominations.

 3            19    Finalize specific criteria for evaluating the Tier 1       U       Assistant Administrator for
                    screening data received and establish specific                       Chemical Safety and
                    criteria for evaluating Tier 2/hazard assessment                     Pollution Prevention
                    testing data received.

 4            19    Develop short-term, intermediate, and long-term            O       Assistant Administrator for
                    outcome performance measures, and additional                         Chemical Safety and
                    output performance measures, with appropriate                        Pollution Prevention
                    targets and timeframes, to measure the progress
                    and results of the program.

 5            19    Develop and publish a comprehensive                        O       Assistant Administrator for
                    management plan for EDSP, including estimates of                     Chemical Safety and
                    EDSP’s budget requirements, priorities, goals, and                   Pollution Prevention
                    key activities covering at least a 5-year period.

 6            20    Annually review the EDSP program results,                  U       Assistant Administrator for
                    progress toward milestones, and achievement of                       Chemical Safety and
                    performance measures, including explanations for                     Pollution Prevention
                    any missed milestones or targets.




     1   O = recommendation is open with agreed-to corrective actions pending
         C = recommendation is closed with all agreed-to actions completed
         U = recommendation is undecided with resolution efforts in progress.




     11-P-0215                                                                                                                                           21
                                                                              Appendix A

              Agency Comments on Draft Report
                              March 17, 2011

MEMORANDUM

SUBJECT: 	     Draft Evaluation Report: EPA’s Endocrine Disruptor Screening Program
               Should Establish Management Controls to Ensure More Timely Results

FROM: 	        Stephen A. Owens
               Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

TO: 	          Wade T. Najjum
               Assistant Inspector General
               Office of Program Evaluation

        Thank you for providing the opportunity to review the draft evaluation report:
EPA's Endocrine Disruptor Screening Program Should Establish Management Controls
to Ensure More Timely Results. We appreciate OIG's recommendations and believe they
identify actions that will be useful as the Agency proceeds with screening a broader
spectrum of chemicals, including drinking water contaminants, and as the Agency takes
steps to increase the utility of computational toxicology tools in the Endocrine Disruptor
Screening Program (EDSP). This memorandum provides comments on the OIG's
recommendations and identifies the actions the Agency commits to take in response to
the recommendations, including planned completion dates for each action.

        We note that OIG acknowledged in their report the significant difficulties
involved in implementing an effective EDSP. The unpredictable challenges inherent in a
multistep, iterative validation process were the most important factor affecting the overall
timeline of the EDSP. Comparisons with other large scale validation efforts, such as
those under the auspices of the U.S. Interagency Coordinating Committee on the
Validation of Alternative Methods (ICCVAM) and the Organization for Economic
Cooperation and Development (OECD), provide some perspective when considering the
historical timeline associated with the EDSP. Such comparisons show that EPA's efforts
to develop and validate a battery of screening assays for Tier 1 of the EDSP proceeded as
quickly or more quickly than equivalent programs administered by other organizations.
Furthermore, the extensive, external scientific input and public involvement that was
achieved through advisory committees, public notices, and comment opportunities also
had a bearing on the EDSP timeline. We believe, however, that the high level of
transparency associated with these activities is a noteworthy achievement of the EDSP,
was critical to the success of the program, and must continue as the program evolves.



11-P-0215                                                                                      22
         EPA recognizes that the long-term success of the EDSP will depend, in part, on
our ability to rapidly integrate new science, such as computational toxicology tools, into
the program. The Agency is currently developing a workplan focused on evolving the
EDSP to increase the use of molecular, in vitro, and computational tools (collectively
referred to as computational toxicology tools). We believe that, in developing this
workplan, we will identify ways to streamline the process for building confidence in
new scientific tools. Maximal integration of computational toxicology tools into the
EDSP (e.g., replacement of Tier I in vivo assays with one or more in vitro assays), if
feasible, is viewed as a long-term objective. Therefore, the current workplan will be a
key, initial component of a multi-year comprehensive management plan covering at
least five years into the EDSP's future. This comprehensive management plan will
specifically address budget requirements and performance management and will include
components for the continued issuance of test orders, development of a consolidated
information infrastructure, and other aspects of the program.

        The recommendations contained in your report are consistent with the Agency's
vision for the future management of the EDSP. In accordance with EPA Manual 2750,
below are our responses for each recommendation contained in the OIG report.

Responses to Specific Recommendations

The report recommends that the Assistant Administrator for Chemical Safety and
Pollution Prevention:

    1)	 Define and identify the universe of chemicals for screening and testing to
        establish the scope of the program.

The Agency believes that the scope of the current EDSP is clearly defined and
established by the statutory requirements of the Federal Food, Drug, and Cosmetic Act
and the discretionary authority under the Safe Drinking Water Act. Consequently, we
believe that the Agency has already identified the current universe of chemicals for
screening as all pesticide chemicals (active and inert ingredients) and drinking water
contaminants that are either currently regulated with a national primary drinking water
regulation or are unregulated contaminants that are listed on the third Contaminant
Candidate List.

    In the future, however, EPA may conclude it is appropriate to consider EDSP
screening for a larger universe of chemicals. EPA believes that its focus should be on
developing tools for use in identifying additional chemicals as candidates for screening.
As discussed below, EPA intends to use a science-based prioritization process to identify
additional chemicals for EDSP screening. Developing this process (as requested in OIG's
second recommendation) will be part of the Agency's workplan focused on integrating
computational toxicology tools into the EDSP and the multi-year comprehensive
management plan for the EDSP. Currently, the workplan and management plan are
anticipated to be completed by the end of FY 201l and the third quarter of FY 2012,
respectively.
See Appendix B, Note 1, for OIG Response

11-P-0215                                                                                    23
   2) Develop and publish a standardized methodology for objectively prioritizing the
   universe of chemicals for screening and testing, including elements recommended
   by the federal advisory committees such as use of effects and exposure data, as well
   as public nominations.

The Agency agrees that developing a methodology for objectively prioritizing the
universe of chemicals for screening is important. As will be described in the Agency's
workplan for integrating computational toxicology tools into the EDSP, EPA is moving
to a new, flexible process for priority setting. Given the ongoing, scientific research in
this area, flexibility will be a key feature of any prioritization methodology so that future
developments and alternative approaches can be incorporated as appropriate. For
example, we anticipate that an initial prioritized list of chemicals could be developed in
the near term (e.g., in FY 2012) using tools such as ToxCast and Quantitative Structure
Activity Relationship (QSAR) models in combination with other data. As ToxCast is
further developed and additional tools such as ExpoCast become available, the prioritized
list would be refined to incorporate these advances in the scientific research. The
workplan for integrating computational toxicology tools into the EDSP and the
comprehensive management plan for the EDSP will address priority setting and the
flexibility needed as current tools are improved and new tools become available. The
workplan will identify clear milestones for the release of an initial, prioritized list and
opportunities for external scientific input and public involvement (including how
chemicals nominated by the public will be addressed in priority setting). Therefore, the
workplan and comprehensive management plan will be the Agency's vehicles for
responding to this recommendation. Currently, the workplan and management plan are
anticipated to be completed by the end of FY 2011 (September 2011) and the end of the
third quarter of FY 2012 (June 2012), respectively.

See Appendix B, Note 2, for OIG Response



   3) 	 Finalize specific criteria for evaluating the Tier 1 screening data received and
        establish specific criteria for evaluating Tier 2/hazard assessment testing data
        received.

    As noted by the OIG in the Draft Report, on November 4, 2010, the Agency
published and requested public comment on the draft criteria for evaluating Tier 1
screening data (draft "Weight Of Evidence Guidance: Evaluating Results Of EDSP
Tier 1 Screening To Identify Candidate Chemicals For Tier 2 Testing"). The Agency is
currently evaluating public comments and plans to finalize the criteria by the end of
FY 2011 (September 2011).

    While the EDSP process for deciding whether individual chemicals will proceed from
Tier 1 screening to Tier 2 testing is comparatively new, warranting the publication of
evaluation criteria, the Agency and the broader scientific community have a long history
of conducting hazard and risk assessments of the type envisioned in Tier 2 of the EDSP.



11-P-0215                                                                                       24
Existing guidelines, which have been thoroughly vetted through opportunities for public
comment, and longstanding transparent practices, guide the conduct of Agency risk
assessments. To shed further light on EDSP Tier 2 evaluations, the Agency plans to
develop Standard Evaluation Procedures (SEPs) specific to the individual Tier 2 tests.
The Agency cannot develop these SEPs until validation of the Tier 2 tests is completed.
Therefore, the Agency anticipates completing SEPs for all of the individual Tier 2 tests
by the end of the first quarter of FY 2013 (December 2012).

See Appendix B, Note 3, for OIG Response


   4) 	 Develop short-term, intermediate, and long-term outcome performance measures,
        and additional output performance measures, with appropriate targets and
        timeframes, to measure the progress and results of the program.

    In the report, the OIG summarizes two output performance measures used for the
EDSP through FY 2010. The Agency reported results for these measures annually,
including explanations for missed or exceeded targets. Beginning with FY 2011, we are
implementing three new performance measures for the EDSP. These measures better
reflect current activities within the program which include continued assay validation
work and the issuance of test orders for the first list of chemicals. Two of these measures
(number of chemicals for which EDSP Tier 1 test orders have been issued and number of
screening and testing assays for which validation decisions have been reached) are output
measures. We believe the third measure (number of chemicals for which EDSP decisions
have been completed) is consistent with what OIG has defined as a short-term outcome
measure.

    As we develop our comprehensive management plan, we will re-visit existing
performance measures and develop a set of measures that more comprehensively
addresses EDSP activities across all offices and includes more outcome measures.
Identifying measurable outcomes to assess program performance is generally a very
difficult task. Our initial thinking with respect to applying the guidance OIG has
provided, in the context of the EDSP, is that short-term outcomes could consist of making
weight-of-evidence determinations to decide whether a chemical will move on to EDSP
Tier 2 testing (this is currently captured under our existing measures). Intermediate
outcomes could consist of the hazard assessments that will result from Tier 2. Long-term
outcomes could include a characterization of the regulatory actions that result from EDSP
screening and testing, the impact of such actions on human health and the environment
and other metrics. These measures will be addressed in EPA's comprehensive
management plan which the Agency anticipates releasing by the end of the third quarter
of FY 2012 (June 2012).

See Appendix B, Note 4, for OIG Response




11-P-0215                                                                                     25
   5) 	 Develop and publish a comprehensive management plan for EDSP, including
        estimates of EDSP's budget requirements, priorities, goals, and key activities
        covering at least a 5-year period.

    As the OIG has noted, EPA plans to develop a comprehensive management plan for
the EDSP. The aforementioned workplan for integrating computational toxicology tools
into the EDSP will be a key, initial component of the comprehensive management plan.
The management plan will cover at least 5 years into the future of the EDSP and will
include the continued issuance of test orders, the development of a consolidated
information infrastructure for the EDSP, and other aspects of the program. The
management plan will address budget requirements for the EDSP and performance
management, including performance measures and annual reviews. EPA anticipates
releasing our management plan by the end of the third quarter of FY 2012 (June 2012).

See Appendix B, Note 5, for OIG Response


   6) 	 Annually review the EDSP program results, progress toward milestones, and
        achievement of performance measures, including explanations for any missed
        milestones or targets.

    The Agency reports annually on the EDSP's performance measures as part of what is
currently known as the Annual Performance Review (APR). This reporting includes
progress toward annual targets with explanations for any that are missed or exceeded.
The Agency will continue this review process and will consider additional options for
annual program reviews as we develop the comprehensive management plan for the
EDSP. EPA anticipates releasing our management plan by the end of the third quarter of
FY 2012.
See Appendix B, Note 6, for OIG Response

   Again, we appreciate the opportunity to review and comment on this draft report.
Should you have any questions or concerns regarding this response, please contact Steven
Knott, Deputy Director, Office of Science Coordination and Policy at (202) 564-0103 or
Janet Weiner, Audit Followup Coordinator for OCSPP, at (202) 564-2309.




11-P-0215                                                                                  26
                                                                              Appendix B

            OIG Evaluation of Agency Comments
General Comments

We appreciate the Agency’s comments, and its recognition that our recommendations
identify actions that will be useful as the Agency takes steps to implement various aspects
of EDSP. Additionally, we appreciate the Agency’s explanation of its intent to use
ToxCast and other tools that are being developed to replace screening tests for Tier 1
assays in the future. Once the Agency is able to validate the use of ToxCast tests for
screening chemicals, it will be appropriate to include it in the EDSP management plan.
Until that time, the Agency should include how it will use its existing proven (validated)
test procedures to screen chemicals in the EDSP comprehensive management plan. In
February 2010, EDSP managers said ToxCast would not be ready for program use for
another 5 years. The FQPA requires that EDSP use validated test methods. As such, EPA
needs to validate ToxCast before these tests are integrated into the program.

Note 1 - Response to Recommendation 1:

The Agency stated that it believes the EDSP scope is clearly defined and established by
the statutory requirements of the FQPA and the discretionary authority provided to EPA
under SDWA, and thus does not plan to further define and identify the universe of
chemicals for screening and testing. However, the foundation of Agency strategic
planning and budgeting efforts starts with OCSPP taking its statutory and discretionary
authorities and translating them into a universe of potential endocrine-disrupting
chemicals that, based on potential health risks, need to be screened and tested. OCSPP’s
response would continue to avoid the creation of such a universe. We continue to believe
that the Agency needs to be transparent regarding how it will use all of its authorities to
create a universe of chemicals to be screened. As noted in the report, without a better-
defined universe, the Agency cannot estimate the amount of resources it will take to
effectively sort and prioritize potential endocrine disruptors for screening, or when
screening and testing will be completed. OCSPP’s response did not meet the intent of the
recommendation. We consider this recommendation unresolved.

Note 2 - Response to Recommendation 2:

We agree with the Agency that developing a methodology for objectively prioritizing the
universe of chemicals for screening is important. The Agency’s response stated that the
EDSP’s new workplan and EDSP’s new comprehensive management plan will be the
vehicles that OCSPP uses to address this recommendation. OCSPP stated that it would
identify milestones for the release of an initial prioritized chemical list and provide
opportunities for external scientific input and public involvement. However, in its
response, OCSPP did not specifically commit to considering effects and exposure data, or
to taking public nominations, and it only committed to releasing an initial prioritized list.



11-P-0215                                                                                       27
As such, the Agency has not provided us with sufficient information to determine
whether its plans meet the intent of the recommendation. We continue to believe the
program should develop a methodology for prioritizing chemicals so that likely
endocrine-disrupting chemicals are tested first and stakeholders understand which
chemicals have been prioritized for screening. We consider this recommendation
unresolved.

Note 3 - Response to Recommendation 3:

We commend the Agency for developing draft Tier 1 criteria for public comment during
the course of our evaluation, and for agreeing to develop Tier 2 Standard Evaluation
Procedures. However, the Agency still needs to publish specific criteria to be used to
evaluate the results of EDSP Tier 2 tests and Hazard Assessment. The Agency has agreed
to develop Standard Evaluation Procedures for the Tier 2 tests. We need more
information in order to determine whether the Agency’s plans for developing Standard
Evaluation Procedures would meet the intent of our recommendation. We consider this
recommendation unresolved.

Note 4 - Response to Recommendation 4:

The Agency agreed to develop a set of performance measures that comprehensively
addresses EDSP activities across all offices, including more outcome measures by June
2012. In its response, the Agency discusses the new performance measures for FY 2011.
The Agency is correct in characterizing the first two new performance measures as output
measures. However, the Agency will need to better explain its characterization of the
third performance measure as an outcome measure. Generally, outputs are actions,
activities, and impacts that are internal within an organization (decisions, work products,
services provided, etc.), while outcomes have an impact outside of the organization. We
accept the Agency’s response to this recommendation.

Note 5 - Response to Recommendation 5:

EPA plans to develop a comprehensive management plan for the EDSP that will cover at
least 5 years into the future by June 2012. The Agency also noted that its workplan for
integrating computational toxicology tools into the EDSP will be a key, initial component
of the comprehensive management plan. We accept the Agency’s response to this
recommendation.

Note 6 - Response to Recommendation 6:

In its response, OCSPP only agreed to continue its current Annual Performance Review,
which reports progress toward annual targets. OCSPP stated that it would consider
additional options for annual program reviews as the comprehensive management plan
was developed, but does not commit to a more extensive review of program progress than
has been done in the past. We believe OCSPP’s leadership needs to ensure that proper
management controls are in place so that progress and accountability can be determined.



11-P-0215                                                                                     28
Existing reviews have not improved the program’s ability to meet milestones, and
Congress has stated that EPA was taking too long to implement EDSP. Thus we believe a
more enhanced or extensive annual review is warranted. We consider this
recommendation unresolved.




11-P-0215                                                                               29
                                                                        Appendix C

                                Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Chemical Safety and Pollution Prevention




11-P-0215                                                                            30
